         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Audit Report




       EPA and States Should
       Strengthen Oversight of
       Clean Water State Revolving Fund
       Recovery Act Projects
       Report No. 11-R-0519

       August 24, 2011
Report Contributors:                               Janet Kasper
                                                   Khadija Walker
                                                   Michael Petscavage
                                                   Melinda Burks
                                                   Kimberly Crilly
                                                   John Coll
                                                   Claire McWilliams
                                                   Heriberto Ibarra




Abbreviations

ARRA          American Recovery and Reinvestment Act of 2009
CWA           Clean Water Act
CWSRF         Clean Water State Revolving Fund
EPA           U.S. Environmental Protection Agency
FMFIA         Federal Managers’ Financial Integrity Act
FY            Fiscal year
GAO           U.S. Government Accountability Office
OA            Operating agreement
OIG           Office of Inspector General
OMB           Office of Management and Budget
OW            Office of Water
PER           Program evaluation report


Cover photos: From left: Newly constructed chlorine contact chamber at an ARRA clean
              water project site; pipe in staging area at an ARRA clean water project site.
              (EPA OIG photos)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                       write:   EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       703-347-8330                                       Mailcode 8431P (Room N-4330)
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                       U.S. Environmental Protection Agency 	                                             11-R-0519
                                                                                                     August 24, 2011
                       Office of Inspector General


                       At a Glance
                                                                           Catalyst for Improving the Environment

Why We Did This Review            EPA and States Should Strengthen Oversight of Clean
                                  Water State Revolving Fund Recovery Act Projects
We conducted this audit to
determine whether the U.S.        What We Found
Environmental Protection
Agency (EPA) and selected         State oversight of CWSRF projects does not always ensure subrecipient
states are sufficiently           compliance with ARRA. We found that some states were not conducting adequate
overseeing Clean Water State      oversight of subrecipient compliance with the Buy American provisions of ARRA,
Revolving Fund (CWSRF)            and the frequency of inspections of ARRA-funded CWSRF projects varied among
projects that were funded by      states. EPA oversight guidance to the states is not detailed enough to ensure
the American Recovery and         compliance with ARRA requirements. EPA believes that it lacks statutory
Reinvestment Act of 2009          authority to place requirements on states and gives states flexibility to implement
(ARRA), to ensure that project    their programs. However, if states do not conduct proper oversight, projects are at
goals and ARRA requirements       increased risk of fraud, waste, and abuse, and are also at risk for not complying
are met.                          with ARRA requirements or achieving ARRA’s economic recovery goals.

Background                        EPA’s oversight of states does not ensure that ARRA requirements are met on
                                  CWSRF projects. We found that the ARRA inspection checklist does not include
The CWSRF Program                 enough detailed questions to facilitate EPA oversight of state programs. Further,
received $4 billion of ARRA       the Office of Water is not conducting and documenting reviews of state programs
funding for states to finance     in a timely manner and does not use the resulting review reports to make national
high-priority infrastructure      program decisions. Office of Water management did not make completion of the
projects needed to ensure         review reports a priority and did not use all of the ARRA funding Congress
clean water. EPA made             allocated for oversight. As a result, the EPA oversight process cannot ensure that
ARRA grants to states and         states are complying with program requirements and identifying nationwide issues
Puerto Rico to capitalize their   to improve the CWSRF program.
State Revolving Fund
programs to finance eligible      What We Recommend
high-priority water
infrastructure projects.          We recommend that EPA implement a plan to supplement state inspections and
                                  require states to use an updated checklist during their inspections. We recommend
                                  that EPA update the checklists regions use for semiannual reviews of state
                                  programs and establish deadlines for completing the reviews. We also recommend
For further information,          that EPA analyze the reviews of state programs for nationwide trends and use the
contact our Office of             information to assist in making future program decisions. In responding to the
Congressional, Public Affairs
and Management at                 draft report, EPA did not agree with all of our recommendations and provided
(202) 566-2391.                   alternative corrective actions for some. The Agency did not provide planned
                                  completion dates for the recommendations. For this reason, the recommendations
The full report is at:            are unresolved. In responding to the final report, the Agency will need to provide
www.epa.gov/oig/reports/2011/
20110824-11-R-0519.pdf
                                  a corrective action plan and milestone dates for completion.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                            THE INSPECTOR GENERAL




                                         August 24, 2011

MEMORANDUM

SUBJECT:	 EPA and States Should Strengthen Oversight of
          Clean Water State Revolving Fund Recovery Act Projects
          Report No. 11-R-0519


FROM:          Arthur A. Elkins Jr.
               Inspector General

TO:	           Nancy Stoner
               Acting Assistant Administrator for Water


This is the final report on the subject audit conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated direct labor and travel costs for this report are $499,342.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days of the report date. In responding to the draft report, the Agency
did not provide planned completion dates for the proposed recommendations. For this reason, the
recommendations are unresolved. In responding to the final report, the Agency will need to
provide a corrective action plan and milestone dates for completion. Your response will be
posted on the OIG’s public website, along with our memorandum commenting on your response.
Your response should be provided as an Adobe PDF file that complies with the accessibility
requirements of Section 508 of the Rehabilitation Act of 1973, as amended. The final response
should not contain data that you do not want released to the public; if your response contains
such data, you should identify the data for redaction or removal. We have no objections to the
further release of this report to the public. We will post this report to our website at
http://www.epa.gov/oig.
If you or your staff has any questions regarding this report, please contact Melissa Heist,
Assistant Inspector General for Audit, at (202) 566-0899 or heist.melissa@epa.gov; or
Janet Kasper, Director of Contracts and Assistance Agreement Audits, at (312) 886-3059
or kasper.janet@epa.gov.
EPA and States Should Strengthen Oversight of                                                                             11-R-0519
Clean Water State Revolving Fund Recovery Act Projects


                                   Table of Contents 


Chapters
   1	   Introduction ........................................................................................................      1


                Purpose .......................................................................................................    1     

                Background .................................................................................................       1     

                Noteworthy Achievements ...........................................................................                3     

                Scope and Methodology ..............................................................................               3     



   2    States Should Strengthen Oversight of CWSRF Projects .............................                                         6


                States Required to Oversee ARRA Projects ...............................................                           6

                States Should Strengthen Oversight of Subrecipients ................................                               6

                Conclusion...................................................................................................     10     

                Recommendations ......................................................................................            11     

                Agency Response and OIG Comment ........................................................                          11 


   3    EPA Should Strengthen Oversight of States ..................................................                              13 


                EPA Required to Oversee State Programs .................................................                          13 

                EPA Should Strengthen Oversight of State Programs ................................                                13 

                Conclusion...................................................................................................     18     

                Recommendations ......................................................................................            18     

                Agency Response and OIG Comment ........................................................                          19 


   Status of Recommendations and Potential Monetary Benefits..............................                                        22




Appendices
   A	   Details on Scope and Methodology..................................................................                        23 


   B	   Regional Performance Evaluations of States: 

        Elapsed Time and Findings...............................................................................                  25 


   C	   Agency’s Response to Draft Report.................................................................                        27 


   D    D
        	 istribution .........................................................................................................   36

                                              Chapter 1

                                               Introduction
Purpose
                    The American Recovery and Reinvestment Act of 2009 (ARRA) provides that the
                    Office of Inspector General (OIG) should oversee ARRA funds to ensure that
                    they are properly expended in a transparent manner. Of all U.S. Environmental
                    Protection Agency (EPA) programs to receive ARRA funds, the Clean Water
                    State Revolving Fund (CWSRF) Program received the most funding. We sought
                    to determine whether EPA and states1 performed sufficient oversight of ARRA
                    CWSRF projects to ensure that project goals and ARRA requirements were met.

Background
                    ARRA

                    The purpose of ARRA, in part, was to create and save jobs, jumpstart the
                    economy, and build the foundation for long-term economic growth. ARRA
                    provided EPA with $7.2 billion, including $4 billion for the CWSRF Program.
                    ARRA required agencies to award the funding consistent with prudent
                    management and Office of Management and Budget (OMB) ARRA guidance.
                    This guidance required agencies to initiate additional oversight mechanisms to
                    mitigate ARRA’s “unique implementation risks.”

                    New requirements and specific guidelines apply to grants made with ARRA
                    funds. For example, contractors that receive CWSRF ARRA funds are required to
                    pay all laborers and mechanics at or above the prevailing Davis-Bacon Act wage
                    rates determined by the Secretary of Labor. Additionally, and with a few
                    exceptions, subrecipients are required to use only American-made iron, steel, and
                    other manufactured goods under the Buy American provisions of ARRA.

                    CWSRF Program

                    The Clean Water Act (CWA), as amended in 1987, established a water pollution
                    revolving fund that has evolved into today’s CWSRF Program. Through the
                    CWSRF, EPA provides states with annual capitalization grants to fund water
                    quality protection projects for wastewater treatment, nonpoint source pollution
                    control, and watershed and estuary management. The grants are awarded to states
                    to develop a conservation plan, implement a management program, and issue
                    loans to local communities to construct treatment works. States have the
                    flexibility to target resources to their particular environmental needs.

1
    “States” refers to either states or U.S. territories that received CWSRF ARRA funding.

11-R-0519                                                                                            1
            The CWA requires EPA to provide oversight for state programs to ensure
            compliance with the CWA and EPA guidance. EPA must approve annual project
            funding plans, conduct reviews, and provide consultation and technical assistance,
            as necessary. The CWA also requires EPA to inform states of noncompliance
            issues identified in reviews and to propose corrective action.

            State Oversight

            The CWA allows states to use up to 4 percent of CWSRF ARRA funds
            appropriated for management and oversight purposes. EPA-state operating
            agreements (OAs) require states to:

               •	 Manage the CWSRF Program in accordance with the OA and terms of the
                  grant agreement, and in conformance with applicable state and federal
                  laws, regulations, and guidance

               •	 Maintain a competent organization and a staff-skill mix to assure that
                  projects meet acceptable technical, environmental, and financial
                  requirements as established or referenced in the OA

            Annual capitalization grant agreements require states to maintain primary
            responsibility for ensuring successful completion of EPA-approved projects.
            Agreements also require states to monitor the performance of subrecipients to
            ensure that they comply with all applicable regulations, statutes, and terms and
            conditions for each project.

            In March 2010, EPA provided ARRA-specific oversight guidance to states. The
            guidance included an optional ARRA inspection checklist for states to use. This
            checklist instructed states to confirm that ARRA-funded projects comply with the
            Davis-Bacon Act and Buy American provisions. EPA also encouraged states to
            inspect each project at least once per year.

            Subrecipient Responsibilities

            Subrecipients are responsible for ensuring that projects comply with federal laws
            and regulations. EPA-state capitalization grant agreements stipulate that states
            must require subrecipients to complete and report on projects to ensure they
            comply with ARRA requirements. Subrecipients must comply with ARRA Buy
            American provisions or follow the EPA waiver processes for exemptions.
            Subrecipients must also maintain payroll records that comply with ARRA Davis-
            Bacon provisions. Subrecipients must maintain records that adequately identify
            the source and application of ARRA funds. States convey these requirements to
            subrecipients through loan agreements.




11-R-0519                                                                                      2
            In its 2010 Report to the Nations on Occupational Fraud and Abuse, the
            Association of Certified Fraud Examiners ranked the construction industry 9th out
            of 22 industries for risk of occupational fraud, both in terms of frequency of fraud
            cases and median loss. Notably, the construction industry had the fourth-highest
            percentage of corruption cases in the fraud association study. These statistics
            illustrate the importance of robust subrecipient monitoring and oversight of
            CWSRF ARRA-funded construction projects.

Noteworthy Achievements
            EPA took steps to assist recipients and subrecipients in complying with newly
            introduced ARRA requirements. Specifically, EPA hosted webcasts for states and
            subrecipients that provided guidance on monitoring compliance with Davis-Bacon
            and Buy American provisions. EPA’s Office of Water (OW) offered contractor
            assistance to regions and states to conduct inspections and review project
            documentation. Representatives from at least six EPA regions accompanied OIG
            staff to give ARRA fraud, waste, and abuse briefings to states, subrecipients, and
            contractors.

            Four of the five states we visited (Hawaii, Oregon, Puerto Rico, and Texas)
            incorporated unannounced inspections as part of their routine oversight. We view
            this as a best practice, because such inspections more readily identified and
            corrected instances of ARRA noncompliance. In addition, three other states
            (Illinois, Minnesota, and Wisconsin) created their own review documents for
            monitoring subrecipient compliance with ARRA requirements.

Scope and Methodology
            We conducted this performance audit from February 2010 to April 2011 in
            accordance with generally accepted government auditing standards issued by the
            Comptroller General of the United States. Those standards require that we plan
            and perform the audit to obtain sufficient, appropriate evidence to provide a
            reasonable basis for our findings and conclusions based on our audit objective.
            We believe that the evidence obtained provides a reasonable basis for our findings
            and conclusions based on our audit objective.

            We reviewed relevant federal regulations and guidance. We interviewed EPA
            headquarters and regional CWSRF staff (Regions 2, 6, 9, and 10) regarding how
            EPA ensures that ARRA CWSRF projects meet intended project goals and ARRA
            requirements. We selected states and project sites based on a risk assessment that
            factored in past single audit and annual financial report findings, as well as an
            analysis of state financial management of CWSRF programs. We visited state
            offices and interviewed staff in Hawaii, New Jersey, Oregon, Puerto Rico, and
            Texas. We also visited construction sites in Oregon and Puerto Rico. We surveyed
            additional states and EPA regions to increase our audit coverage. Overall, we
            visited or surveyed 13 out of the 51 CWSRF-eligible states/territories and 9 out of

11-R-0519                                                                                   3
                 10 EPA regions. See appendix A for further details on our scope and
                 methodology.

                 Prior Audit Coverage

                 EPA OIG

                 In OIG Report No. 08-P-0290, Innovative Techniques for State Monitoring of
                 Revolving Funds Noted, September 29, 2009, the OIG suggested that EPA include
                 a review of how states monitor borrowers as part of its annual review procedures.
                 Because this report contained no recommendations, EPA was not required to
                 respond.

                 In OIG Report No.10-3-0223, City of Detroit, Comprehensive Annual Financial
                 Report for the Fiscal Year Ended June 30, 2009, May 28, 2010, the OIG reported
                 that for some ARRA-funded projects, the Buy American certifications were not
                 maintained, and the Davis-Bacon Act requirements were not verified, because the
                 subrecipient, a local government, did not communicate the ARRA requirements to
                 the construction contractor.

                 In addition, the OIG conducted unannounced site visits of ARRA projects to
                 determine compliance with selected requirements of ARRA. As of April 2011, the
                 OIG issued seven reports on site visits to CWSRF projects, as shown in table 1.

 Table 1: EPA OIG reports on site visits to CWSRF ARRA projects
  Report Title                                                     Number              Date
  American Recovery and Reinvestment Act Site Inspection of      10-R-0147      June 16, 2010
  the High-Rate Water Treatment Facility, City of Newark, Ohio
  American Recovery and Reinvestment Act Site Inspection of      11-R-0014     November 9, 2010
  Sewer Pump Station Rehabilitation and Improvements, Town of
  Ball, Louisiana
  American Recovery and Reinvestment Act Site Inspection of      11-R-0082     February 1, 2011
  the Clean Water State Revolving Fund Projects at the City of
  Long Beach, California
  American Recovery and Reinvestment Act Site Inspection of      11-R-0083     February 2, 2011
  Sewer System Improvement Projects, City of Parma, Ohio
  American Recovery and Reinvestment Act Site Visit of the       11-R-0172     March 22, 2011
  Denver Street Storage Project, City of Astoria, Oregon
  American Recovery and Reinvestment Act Site Visit of Water     11-R-0193     March 29,2011
  System Improvement Project, Waleska, Georgia
  American Recovery and Reinvestment Act Site Visit of the       11-R-0192     March 29,2011
  Comprehensive Sewer System Rehabilitation, Subsystem PS-
  5, Saugus, Massachusetts
 Source: EPA OIG.




11-R-0519                                                                                       4
            U.S. Government Accountability Office

            The U.S. Government Accountability Office (GAO) issued GAO-10-604, States’
            and Localities’ Uses of [ARRA] Funds and Actions Needed to Address
            Implementation Challenges and Bolster Accountability, in May 2010. This report
            presented GAO’s conclusions and recommendations on agencies’ accountability
            regarding the use of ARRA funds based on a sample of 16 states, numerous
            localities, and agencies’ Washington, DC, operations. GAO recommended that
            EPA “work with the states to implement specific oversight procedures to monitor
            and ensure subrecipients’ compliance” with ARRA CWSRF requirements. In
            response, EPA stated that it enhanced subrecipient oversight “ . . . through
            procedures designed to address EPA review of State ARRA programs and the
            frequency, content, and outputs of EPA and State reviews of specific ARRA
            projects.” These procedures were designed to:

                   Continue to conduct ARRA reviews of each state on a semiannual basis
                   Develop the optional state inspection checklist for subrecipient 

                    monitoring 

                   Encourage states to inspect all ARRA projects at least once a year and
                    require EPA to participate in at least one project site inspection per year
                    with each state
                   Continue to conduct webcasts for states and subrecipients on ARRA-
                    specific provisions
                   Continue to provide technical assistance as needed




11-R-0519                                                                                    5
                                  Chapter 2

            States Should Strengthen Oversight of 

                      CWSRF Projects 

            State oversight of CWSRF projects does not always ensure subrecipient
            compliance with ARRA. We found that some states were not ensuring compliance
            with the Buy American provisions of ARRA, and states were not using the
            optional administrative funds set-aside that is available to perform oversight. We
            also found that more frequent inspections are likely to result in identifying more
            violations. EPA oversight guidance to the states is not sufficiently detailed to
            ensure compliance with ARRA requirements. EPA believes that it lacks statutory
            authority to place requirements on states and wants to afford states flexibility in
            implementing their programs. However, if states do not properly oversee projects,
            projects are at risk of not achieving ARRA goals or not complying with ARRA
            requirements, and have an increased risk of fraud, waste, and abuse.

States Required to Oversee ARRA Projects
            The OAs between EPA and states require states to maintain a competent
            organization and a staff-skill mix to assure that projects meet acceptable technical,
            environmental, and financial requirements. The state capitalization grant
            agreements we reviewed require states to ensure that subrecipients comply with
            ARRA requirements.

            OMB’s ARRA oversight guidance emphasizes that the ARRA recipient, which in
            this case is the state, is responsible for ensuring that all ARRA requirements are
            met. EPA gave states the option to use an ARRA inspection checklist to confirm
            that projects are in compliance with the Davis-Bacon Act and Buy American
            provisions of ARRA. EPA guidance also encouraged states to perform at least one
            inspection per year.

States Should Strengthen Oversight of Subrecipients
            We found that state oversight did not always ensure subrecipient compliance with
            all ARRA provisions. One state did not verify that documents the subrecipients
            submitted as evidence actually demonstrated compliance with ARRA
            requirements. States were more likely to identify compliance issues when they
            conducted more frequent inspections. Some states were also not using all funds
            available to oversee ARRA projects.




11-R-0519                                                                                    6
                 States Not Ensuring Compliance with Certain ARRA Provisions

                 We visited five states. Three of those states do not independently verify
                 compliance with ARRA requirements.2 We visited five projects in two of those
                 three states and reviewed subrecipient documentation. EPA developed an ARRA
                 checklist that states can follow to ensure compliance with requirements; however,
                 states were not required to use the checklist, and the checklist did not require
                 verification to source documentation of ARRA requirements. One state we visited
                 developed its own ARRA checklist, while two other states were adopting EPA’s
                 ARRA checklist. The checklist suggested that states confirm compliance with
                 Buy American requirements; it did not require states to confirm that subrecipients
                 verified that the documentation complied with ARRA requirements. For Davis-
                 Bacon Act wage requirements, the EPA checklist only requires states to confirm
                 that the subrecipient was verifying compliance. States were not asked to perform
                 an independent assessment of the records. Two states we visited voluntarily made
                 it a practice to verify documentation.

                 We found that 40 of 54 Buy American certifications for the five projects we
                 reviewed did not include sufficient information (as defined by EPA guidance) to
                 verify compliance. For example, in one instance the subrecipient accepted the
                 supplier’s statement that materials made in Canada automatically complied with
                 ARRA, when in fact, materials produced in Canada are not allowable purchases
                 under the ARRA Buy American provision unless EPA grants a waiver. In other
                 instances, the documentation that the subrecipient accepted from suppliers was
                 missing key information such as the name of the ARRA-funded project, detailed
                 responses to the substantial transformation questionnaire, a description of
                 complex and meaningful processes that caused a substantial transformation, or the
                 location where the substantial transformation occurred.

                 EPA said that the subrecipients are responsible for ensuring compliance with the
                 Buy American provisions of ARRA. The loan agreements between the state and
                 subrecipient included a requirement that the state ensure compliance with all
                 applicable regulations, with specific reference to ARRA requirements. The states
                 we reviewed accepted documentation from subrecipients without verification of
                 compliance. While the states said that it was the responsibility of the subrecipient
                 to monitor compliance, the grant agreement identifies monitoring compliance
                 with applicable laws and regulations as a state responsibility and does not mention
                 whether the state can delegate the responsibility.




2
 Since the OIG on-site review, Puerto Rico has instituted a new Buy American review process for subrecipient
compliance.

11-R-0519                                                                                                      7
            More Frequent Inspections Likely to Identify More Violations

            States had varying approaches to CWSRF construction project oversight. Some
            states conduct inspections based on a percentage of project completion, while
            others have biweekly, monthly, or quarterly inspections, as shown in table 2.
            Table 2: ARRA-funded project inspection frequency by state
             State                  Biweekly        Monthly         Quarterly   % completed
             California                                                             X
             Georgia                                    X
             Hawaii                                                    X
             Indiana                                                                X
             Iowa                                                                   X
             New Hampshire                              X
             New Jersey                                                X
             North Dakota                                              X
             Oregon                                                                 X
             Pennsylvania                                                           X
             Puerto Rico                X
             Texas                                      X
             West Virginia                              X
            Source: State responses to OIG survey and interviews.

            States that conducted more frequent project inspections identified more issues
            related to noncompliance with ARRA requirements, as noted in table 3. For
            example one state that conducted more frequent (i.e., monthly) inspections
            identified goods being used on the sites that did not meet Buy American
            requirements. Another state found noncompliance with Buy American
            requirements at its quarterly site visits and, as a result, increased its use of
            unannounced site visits. In contrast, another state that conducted inspections when
            a project was 30, 50, and 90 percent complete (which is less frequently than other
            states) did not identify any noncompliance issues. While the evidence we obtained
            suggests that the greater the frequency of inspections the more violations are
            likely to be found, we recognize other factors also contribute to the identification
            of violations. As EPA stated in its response to our draft report, the degree to
            which subrecipients understand requirements and are willing to ensure
            compliance and technical and managerial competency are contributing factors.




11-R-0519                                                                                     8
            Table 3: State inspection frequency and violation identified
                                                                            Types of violations
            State                 Frequency of inspection                   identified by state
            Hawaii           Quarterly, unannounced                     • Material on project site
                                                                          not compliant with Buy
                                                                          American requirement
            New Jersey       Quarterly, unannounced                     • Incorrect ARRA signage
                                                                        • Noncompliance with
                                                                          Davis - Bacon
                                                                          requirements
            Puerto Rico      Biweekly                                   • Safety violations
                                                                        • Environmental violations
            Texas            Monthly, unannounced                       • Material not compliant
                                                                          with Buy American
                                                                          requirement
                                                                        • Insufficient Davis-Bacon
                                                                          documentation and ARRA
                                                                          signage on-site
            Oregon           Project 30, 50, and 90% complete           None
            Source: State inspection reports and interviews with state staff.


            EPA maintains that it does not have the statutory authority to stipulate the number
            or frequency of state inspections of projects. EPA also maintains that it gave
            states flexibility in overseeing projects and, along with the states we visited,
            places heavy reliance on subrecipients to ensure compliance with ARRA
            provisions. According to EPA management, when Congress created the CWSRF
            Program, it intended for states to have flexibility in implementing their programs.
            However, the OIG has concluded that, taken together, CWA, ARRA, and OMB
            guidance provide EPA with the authority to require additional state oversight.

            States Not Using Administrative Set-Aside

            Six of the 13 states that we surveyed were not using any of their administrative
            set-aside funds, as shown in table 4. The CWA allows states to use up to 4 percent
            of the capitalization grant to administer the program. Four states did not use any
            of their set-aside funds for administrative purposes. Instead, they applied all of the
            funds either to projects or to community financial assistance. One state said it did
            not need the administrative set-aside funds because it already assesses a 0.05
            percent annual fee on the unpaid balance on each loan to support administration
            of the CWSRF loan program. One state indicated that resource limitations did not
            allow it to review ARRA applications in a timely manner. However, this state did
            not use its administrative set-aside.




11-R-0519                                                                                            9
            Table 4: State set-aside use as of July 30, 2010
             State                                   State set-aside used
             California                                       X
             Georgia                                          X
             Hawaii                                           X
             Indiana
             Iowa
             New Hampshire                                    X
             New Jersey
             North Dakota                                     X
             Oregon
             Pennsylvania
             Puerto Rico                                      X
             Texas                                            X
             West Virginia
            Source: State responses to OIG survey.



Conclusion
            States should regularly monitor projects to ensure compliance with ARRA
            requirements. Regions collect information on state capacity to implement the
            programs during semiannual program evaluation reviews. These reviews are
            discussed in detail in chapter 3. Our review, while limited in scope, found
            instances of potential noncompliance with Buy American requirements. Without
            oversight, risk of fraud, waste, and abuse involving government funds increases,
            and projects are at risk for not achieving ARRA goals. When states do not
            perform sufficient oversight, EPA does not have accurate information on
            compliance with ARRA requirements.

            A recent single audit report and an EPA study of grant recipients also support the
            need for improved state oversight. The 2010 single audit report for the state of
            Michigan found that for some ARRA-funded projects, the Buy American
            certifications were not maintained, and the Davis-Bacon Act requirements were
            not verified, because the subrecipient, a local government, did not communicate
            the ARRA requirements to the construction contractor. EPA, in a June 2010
            study, also identified local governments—the primary subrecipients for CWSRF
            funds—as a recipient category that is at high risk for fund mismanagement and
            appears to have the highest dollar amount at risk for unallowable costs.




11-R-0519                                                                                  10
Recommendations
            We recommend that the Assistant Administrator for Water:

               1.	 Develop and implement a plan to supplement the state inspections with
                   EPA inspections of ARRA projects that includes expanded testing to
                   verify compliance with ARRA requirements.

               2.	 Require states to follow the updated state ARRA inspection checklist and
                   reference guide when inspecting ARRA projects.

Agency Response and OIG Comment
            OW did not concur with the first recommendation as it was written in the draft
            report. The recommendation was for EPA to ensure that states conduct adequate
            oversight of subrecipients, including requiring, as needed, that states develop
            corrective action plans that address the frequency of inspections. OW explained
            that site inspection is only one of many approaches to reduce noncompliance, and
            only mitigates the risk in the very few instances of willful and knowing
            noncompliance. Prudent management requires EPA to consider the nature, effect,
            and available options for resolving noncompliance when evaluating the needed
            frequency of inspections. Through conducting reviews of state programs and on-
            site inspections in accordance with the regional oversight management plan, OW
            has been able to determine which states need to do a better job of inspecting
            projects under ARRA. In addition, EPA will be independently inspecting up to
            30% of all CWSRF ARRA projects during the remainder of the calendar year
            2011.

            The OIG evaluated OW’s plan to inspect ARRA projects to determine whether it
            would address the issues in the finding and meet the intent of the recommendation.
            The statement of work does require expanded testing for compliance with ARRA
            requirements. The inspection checklist and guidance for the contractor inspections
            does include steps to verify compliance with ARRA requirements.

            EPA conducting the inspections instead of states will not ensure that in the long-
            term states are providing adequate oversight of SRF projects. It would have been
            beneficial if EPA chose the sites based on the results of state reviews and focused
            on states that may not have been doing a good job at conducting inspections.
            However, given that ARRA was a one-time funding source, and the sites to be
            inspected have already been selected, the OIG will accept the additional
            inspections as adequate corrective action. In responding to the final report, OW
            should include an estimate of the minimum number of inspections that will be
            done and a milestone date for completing the inspections.

            OW did not agree with our original second recommendation to require states to
            test and verify that subrecipient documentation complies with ARRA

11-R-0519                                                                                   11
                requirements. Beyond the question of whether EPA possesses the legal authority
                to impose the recommended requirement, OW stated that virtually all states are
                already inspecting projects, and many are using or incorporating specific elements
                from the inspection checklist developed by the program.

                On the issue of legal authority, the OIG came to the conclusion that EPA had the
                authority to require additional reviews based its review of the CWA, ARRA, and
                OMB guidance. The CWA provides EPA with the authority to require audits and
                reviews “as may be deemed necessary or appropriate . . . to carry out the
                objectives of this section.” This language does not establish a set number or set
                circumstances under which additional audits or reviews would be necessary, but it
                does provide discretion for the Administrator to direct additional reviews or audits
                when necessary or appropriate. OMB guidance3 establishes that “[a]gencies must
                take steps, beyond standard practice, to initiate additional oversight mechanisms.”
                The OMB guidance specifically contemplates mandatory field visits or additional
                case examinations to ensure compliance with grant rules and regulations.

                In discussing the response to the draft report, OW provided additional information
                on revisions to the inspection checklist and reference guide that will address the
                report finding if states are required to follow them. In preparation for the
                additional site inspections, EPA updated the state ARRA inspection checklist and
                included a reference guide that has additional details as to what state personnel
                should review in conducting the inspections. The revised checklist and reference
                guide, taken together, require testing and verification of subrecipient
                documentation. If EPA were to require the states to use the revised ARRA
                inspection checklist and reference guide in conducting site inspections, it would
                address the findings in this chapter. We revised recommendation 2 to reflect this
                alternative action. In responding to the final report, EPA should provide a plan
                and milestone date for issuing the updated state ARRA inspection checklist and
                reference guide to states.

                In responding to the draft report, the Agency did not provide planned completion
                dates for the proposed recommendations. For this reason, the recommendations
                are unresolved. In responding to the final report, the Agency will need to provide
                a corrective action plan and milestone dates for completion.




3
 OMB, Updated Implementing Guidance for the American Recovery and Reinvestment Act of 2009, M-09-15, 2009,
Section 5.4.

11-R-0519                                                                                             12
                                    Chapter 3

            EPA Should Strengthen Oversight of States
              EPA’s oversight of states does not ensure that ARRA requirements are met on
              CWSRF projects. We found that the EPA review checklist does not include
              sufficiently detailed questions to facilitate EPA oversight of state programs.
              Further, OW is not timely conducting and reporting on the results of its reviews of
              state programs and does not use the review reports to make national program
              decisions. The CWA and the OAs require EPA to provide technical assistance and
              oversight of state programs. The conditions we found exist because OW
              management did not make completion of the review reports a priority and did not
              use all of the oversight resources available from the ARRA funding. EPA did not
              identify untimely completion of the review reports as a risk that ARRA program
              goals are not being met and that funds are not used appropriately. As a result, the
              EPA oversight process cannot ensure that states are complying with program
              requirements and identifying nationwide issues to improve the CWSRF program.

EPA Required to Oversee State Programs
              The CWA requires EPA to conduct an annual review of each State Revolving
              Fund program. The OAs between EPA and the states establish, in general terms,
              the roles and responsibilities of EPA and the states for the CWSRF Program. The
              OAs generally require EPA, through the regions, to provide technical assistance,
              advice, and consultation to the state; and to provide oversight through the annual
              review process. The regions document their annual reviews of state programs in a
              program evaluation report (PER).

              GAO recommended in May 2010 that the EPA Administrator work with the states
              to implement specific oversight procedures to monitor and ensure subrecipients’
              compliance with the provisions of the ARRA-funded State Revolving Fund
              programs. EPA implemented various actions that addressed GAO’s
              recommendation. For example, EPA increased the frequency of regional reviews
              of states from annual to semiannual. EPA also increased its sampling of project
              files and transaction testing from two to four per review.

EPA Should Strengthen Oversight of State Programs
              EPA’s Review Checklist Did Not Ensure State Program Compliance

              OW provided the regions with guidance for conducting semiannual ARRA
              reviews of the state CWSRF programs. In conducting the semiannual reviews,
              OW instructed the regions to use an EPA-created ARRA checklist to assist in the


11-R-0519                                                                                    13
            completion of the PERs. The EPA semiannual ARRA review checklist includes
            review of:

                   •	 Eligibility of projects
                   •	 State program staff capacity and use of funds
                   •	 Federal cross-cutting authorities
                   •	 Environmental review requirements
                   •	 States’ receipt and maintenance of documentation related to ARRA
                      requirements: Section 1512 reporting, green project reserve, Davis-
                      Bacon, Buy American
                   •	 Supporting documentation for four projects
                   •	 Four cash draws of EPA funds

            EPA’s semiannual ARRA review checklist did not include sufficiently detailed
            questions to ensure state program compliance. For example, it does not include:

                   •	 Detailed questions about state oversight of project construction
                   •	 Detailed questions about Davis-Bacon and Buy American
                      documentation review or a recommendation to spot-check to verify
                      compliance
                   •	 Expanded transaction testing when erroneous payments are identified

            Based on our review of the PERs, adding the important aspects listed above into
            EPA’s review checklist would strengthen EPA’s oversight process and increase
            EPA’s ability to identify noncompliance. In 2011, EPA will continue to conduct
            semiannual reviews of states using the current ARRA checklist.

            EPA Not Timely Conducting and Writing Reviews of State Programs

            EPA OW management did not establish as a priority the writing of regional
            semiannual ARRA state program reviews in a timely manner. Although OW
            management provided guidance requiring reviews to be completed semiannually,
            it did not establish a timeframe or deadline for the PERs to be written. Similarly,
            EPA regions did not establish as a priority the documenting of regional
            semiannual ARRA reviews of state programs in a timely manner.

            EPA did not timely conduct and document the semiannual ARRA reviews of the
            state programs. As of September 30, 2010, only 4 of 10 regions had conducted the
            two reviews for the year, required by EPA ARRA program guidance. The
            remaining regions had a portion of reviews conducted or a portion of reports
            written, as shown in table 5.




11-R-0519                                                                                   14
            Table 5: Status of regional reviews and PERs as of September 30, 2010
                          Number of        Required number           Reviews              Reports
            Region          states            of reviews            conducted            completed
                1              6                    12                   11                   3
                2              3                    6                     4                   1
                3              5                    10                   10                   5
                4              8                    16                    9                   5
                5              6                    12                   12                   5
                6              5                    10                   10                   4
                7              4                    8                     7                   4
                8              6                    12                   11                   5
                9              4                    8                     7                   3
               10              4                    8                     8                   1
              Total           51                   102                   89                   36
            Source: Status of PERs provided by EPA regions and headquarters as of September 30, 2010.

            A region may take several months to write the final PER. On average, 3.7 months
            elapsed from when the review was conducted to when the PER was finalized,
            with the longest elapsed time being 9.8 months (see appendix B for details). A
            written product summarizing what the region found during the review is
            important. First, the PER serves as evidence of EPA’s oversight. Second, it serves
            as a written record of weaknesses and as the basis for developing corrective action
            plans. Third, EPA could use the written products to identify trends in state
            management of ARRA funds.

            EPA Not Using PERs to Make Agency Program Decisions

            EPA did not use the PERs collectively to make Agency decisions to improve the
            program. Currently, EPA uses PERs solely to identify and correct deficiencies in
            program management of individual states. Because EPA is not analyzing the PER
            results to identify national trends in the CWSRF Program, it is missing an
            opportunity to use the PERs as a tool to address national deficiencies and
            highlight best practices that are applicable across multiple states.

            We analyzed the 22 PERs and found that 41 percent of the state reviews identified
            deficiencies in Davis-Bacon compliance documentation. The results of this
            analysis are summarized in table 6.




11-R-0519                                                                                               15
            Table 6: Potential state trends identified in 22 OIG-reviewed PERs
                                                                                 Number of states
                                        Issue                              in which issue was identified
             Lack of Davis-Bacon documentation                                             9
             Lack of documentation in general                                              4
             Concerns with state staffing                                                  4
             Ineligible expenses (erroneous payments)                                      2
             Buy American documentation or compliance concerns                             3
            Source: The 22 most recent PERs provided by EPA regions, written as of July 30, 2010.

            Note: A state could have more than one issue identified.

            EPA could analyze PERs to identify potential best practices in state oversight.
            Fourteen of the PERs we reviewed identified best practices. EPA staff recognized
            three states for maintaining thorough project files and two states for having
            thorough inspection checklists. EPA can use best practices identified in PERs to
            inform states of ways to improve their oversight of projects.

            EPA could also analyze PERs to identify needed changes or improvements in
            Agency policies, procedures, and processes. The Agency can use this trend
            analysis information to make national decisions to improve the program. Doing so
            will help reduce the Agency’s vulnerability to fraud, waste, abuse, and
            mismanagement.

            In addition to state trends, EPA could use PERs to develop a more risk-based
            approach to oversight. Currently, the regions are supposed to conduct the same
            level of review twice a year for each state. However, EPA could use PER results
            to identify states and program areas that may be at a lower or higher risk for not
            complying with statutory and ARRA requirements. A risk-based approach to
            selecting states for more extensive review would lead to more efficient operations.

            EPA Not Using Available Oversight Resources

            EPA regions have stated they do not have adequate resources to write PERs in a
            timely manner. For example, two EPA regions were dealing with staffing issues
            that resulted in PERs not being written. One of these regions mitigated the
            resource challenge by hiring or transferring staff from other offices. In addition,
            some EPA regions stated that the process of writing up the PERs is time-
            intensive.

            We also found that EPA did not fully use the resources available from the ARRA
            funding. Specifically, ARRA provided the Agency with management and
            oversight funding, $25 million of which was allocated to the OW CWSRF
            Program. However, in response to a congressional inquiry about unneeded funds,
            EPA determined that over $3 million in unexpended management funds

11-R-0519                                                                                           16
            previously allotted to the CWSRF Program could be reduced, and this amount
            was rescinded by Congress as part of a larger $10 million rescission of ARRA
            funds.

            Figure 1 shows that the OW CWSRF Program had $6.8 million in management
            and oversight funds remaining at the end of fiscal years (FYs) 2009–2010, and
            was allotted an additional $5.8 million for FY 2011. Therefore, OW will have
            $12.6 million available for management and oversight of the CWSRF Program in
            FY 2011, more than it has spent since the inception of ARRA in February 2009.

            Figure 1: ARRA management and oversight funding

                     ARRA Funds Allocated to OW CWSRF  
                                          (as of 9/30/10)



                               Allotted for 
                                 FY 2011               Disbursed 
                                   $5.80 million        from FYs 
                                      26.5%            2009‐2010 
                                                       allotment
                                                       $9.30 million
                                     Remaining            42.5%
                                    allotted for 
                                   FYs 2009‐2010 
                                    $6.80 million
                                       31.0%



            Source: EPA OW data.



            EPA Not Identifying Delayed Completion of PERs as a Risk

            In the stewardship plan for ARRA, EPA identified the PERs as a control for
            addressing risks such as ARRA program goals not being met and funds not being
            used appropriately. While the PERs were not being written timely, EPA did not
            identify the issue as a risk in its 2010 Federal Managers’ Financial Integrity Act
            (FMFIA) assessment and in its September 2010 quarterly stewardship plan report.

            OMB’s ARRA guidance states that agencies must take steps, beyond standard
            practice, to initiate additional oversight mechanisms to mitigate the unique
            implementation risks of ARRA. Agencies were to use appropriate internal control
            assessments to assess the risks and define strategies to prevent fraud, waste, and
            abuse. In addition, in response to OMB’s ARRA guidance, EPA developed a
            stewardship plan. The stewardship plan is an Agency-level risk mitigation plan
            that sets out the Agency’s ARRA risk assessment, internal controls, and
            monitoring activities. OW identified PERs as a control activity to address the risk
            that funds were not used appropriately and program goals were not met. The
            quarterly report on the status of the implementation of the stewardship plan for
            September 2010 did not identify any issues with OW’s implementation of that


11-R-0519                                                                                  17
            plan, even though our review found that regions were not timely completing or
            documenting the PERs.

            EPA did not identify regional oversight of states as a risk to the CWSRF Program
            during its FY 2010 FMFIA process. The FMFIA assurance letter states, “[t]he
            internal controls within OW are adequate to reasonably ensure the protection of
            the program operations, functions, and resources.” The assurance letter states that
            OW is in compliance with EPA’s ARRA stewardship plan and that it is
            monitoring the risks and internal controls identified in the plan. However, as our
            review found, regions are neither timely completing and documenting the PERs
            nor fully realizing the benefits of PERs.

Conclusion
            OMB guidance states that the unique implementation risks of ARRA merit
            increased oversight by the Agency. Therefore, the Agency should strengthen its
            oversight process to ensure state program compliance and continuing
            improvement of the program. The process for regional semiannual ARRA reviews
            of state programs and the resulting PERs is a primary control that EPA
            established for overseeing state ARRA programs. However, EPA is not
            completing these reviews timely. EPA should increase its oversight of state
            CWSRF ARRA programs and adopt a risk-based approach to oversight.
            Specifically, OW should strengthen the review checklist, emphasize that this
            process is a priority by establishing a deadline for the reviews and PERs, and use
            the PERs as a tool to make national decisions to improve the program.

Recommendations
            We recommend that the Assistant Administrator for Water:

               3. Update the semiannual ARRA review checklist to include:

                       a.	 Detailed questions about state oversight of project construction.
                       b.	 Expanded transaction testing when erroneous payments are
                           identified.
                       c.	 A question as to whether the project files contain appropriate
                           documentation that the assistance recipient complied with Davis-
                           Bacon Act requirements.

               4.	 Update the state inspection checklist to include a review of Davis- Bacon
                   documentation and a recommendation to independently verify
                   compliance on a sample basis.

               5.	 Establish deadlines for conducting the regional semiannual ARRA
                   reviews of state programs and documenting them in PERs.


11-R-0519                                                                                  18
               6.	 Use the PERs as a tool to assess Agency trends to make program
                   decisions.

               7.	 Use the risks that are identified in the PERs to determine the level of
                   oversight needed for each state.

               8.	 In the next quarterly stewardship plan report, discuss OW actions to
                   address the timely completion of PERs.

               9.	 In FYs 2011 and 2012, continue to identify the progress in completing
                   PERs and determine whether failure to complete them, and complete
                   them in a timely manner, should be identified as an office-level
                   weakness.

Agency Response and OIG Comment
            In responding to the draft report, OW agreed with parts of our recommendation to
            revise the semiannual review checklist as written in the draft report. At the exit
            conference, the OIG discussed the recommendation and agreed to revise it in the
            final report to clarify the changes that we were recommending to the semiannual
            review checklist (recommendation 3) and added a new recommendation related to
            the state ARRA inspection checklist (recommendation 4). In responding to the
            draft report, the Agency stated that it would be revising the semiannual review
            checklist and recommending expanding transaction testing when warranted. In
            responding to the final report, OW should provide a milestone date for completing
            its corrective actions to the semiannual review checklist and state ARRA
            inspection checklist.

            OW agreed with recommendation 5, to establish deadlines for conducting the
            reviews of state programs and documenting the program evaluations. OW stated
            that it requires that the state reviews be conducted within 60 days of receiving the
            state’s annual report, and that the program evaluation be documented within 60
            days of the review. At the exit conference, OW managers stated that the direction
            was only provided orally during conference calls with regions. The PERs are a
            primary tool that EPA uses to oversee states. EPA should hold regions
            accountable for completing the PERs, but holding regions accountable is difficult
            without written requirements. In responding to the final report, OW should
            provide a milestone date as to when it plans to document the decision on when
            reviews are to be conducted and when PERs are to be completed.

            OW agreed with recommendation 6, to use the PERs to make program decisions.
            EPA used the PERs, in addition to interaction with states and regions during
            reviews, summary finding memos, individual checklists for projects and
            transactions, and semiannual summaries to identify best practices and identify
            trends for needed changes and improvements in the program. EPA has used all of
            this information to develop program priorities, including expanding the annual

11-R-0519                                                                                    19
                review checklists, conducting 3-day training in oversight procedures in each
                regional office between March and October 2011, establishing discussion points
                during the monthly coordinator calls, and updating standard operating procedures
                for regional staff. We analyzed the annual review checklist and the agenda for the
                3-day training, and they do address the issues in the report. However the Agency
                was not able to provide information on the monthly coordinator calls, and the
                updated operating procedures only addressed the issue of expanding testing when
                erroneous payments were found.

                We agree that these actions are beneficial; however, many of the actions EPA
                referred to in its comments took place after we conducted field work. For the
                activities described in the response, EPA relied upon personal knowledge of staff
                regarding the results of the reviews of state programs, and not on a documented
                review of the PERs. EPA should view PER analysis, as recommended in the
                report, as part of its internal control structure. According to OMB Circular A-123,
                risk assessment is one component of internal controls. When conducting risk
                assessment, management should consider internal management reviews, and the
                identified risks should be analyzed for their potential impact. EPA Manual 2750
                on audit follow-up requires the action official, or delegated program manager, to
                maintain documentation on implementation of corrective actions. For this
                recommendation, the documentation should include how the PERs were used in
                developing program priorities, revising the checklist, and updating training and
                standard operating procedures. We are retaining our original recommendation
                because we believe the PERs contain valuable information on issues states are
                encountering in implementing the program. EPA should conduct and document a
                systematic review of the PERs each year to help management make informed
                decisions about the program.

                In response to recommendation 7, on using the risks in the PERs to determine
                level of oversight needed of states, OW stated that it is already a core part of EPA
                oversight. However, we observed that EPA does not base its level of oversight on
                risk. EPA provides a standardized checklist that is followed for all states. A risk-
                based approach would modify the checklist based on results of previous PER
                reviews. For example, if a state did not have any problems with the accuracy of
                transactions for the past 3 years, a region may consider reducing oversight in that
                area. As the Chief Financial Officer stated in a March 2011 memorandum, the
                potential for a tight fiscal environment in the future means that the Agency should
                rethink how it does business.4 In this area, OW should use a risk-based approach
                to oversight rather than one size fits all. In responding to the final report, OW
                should provide specifics on how regions use the results of previous PER reviews
                to adjust state program oversight.

                OW concurred with recommendation 8, to include in the next quarterly
                stewardship plan report a discussion of OW actions to address the timely

4
 Memorandum from Barbara J. Bennett, Chief Financial Officer, “Guidance on EPA’s FY 2013 Annual Plan and
Budget Summer Process,” May 26, 2011.

11-R-0519                                                                                             20
            completion of the PERs. In responding to the final report, OW should provide a
            milestone date for completing the corrective action.

            In response to recommendation 9, on considering the untimely completion of
            PERs as an office-level weakness in FY 2011 or 2012, OW stated that it would
            monitor completion of PERs, but did not agree to identify untimely completion of
            PERs as an office-level weakness. OW’s rationale for not identifying this as an
            office-level weakness was that ARRA oversight activities will largely be
            completed by the end of FY 2012. However, OW is scheduled to submit its
            FY 2011 annual assurance letter in August 2011. OW can analyze the progress of
            PERs completion and still consider whether it should be an office-level weakness
            for FY 2011.

            In responding to the draft report, the Agency did not provide planned completion
            dates for the proposed recommendations. For this reason, the recommendations
            are unresolved. In responding to the final report, the Agency will need to provide
            a corrective action plan and milestone dates for completion.




11-R-0519                                                                                  21
                                 Status of Recommendations and
                                   Potential Monetary Benefits
                                                                                                                             POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                           BENEFITS (in $000s)

                                                                                                                 Planned
    Rec.    Page                                                                                                Completion   Claimed    Agreed-To
    No.      No.                         Subject                            Status1      Action Official           Date      Amount      Amount

     1       11 	 Develop and implement a plan to supplement the              U       Assistant Administrator
                  state inspections with EPA inspections of ARRA                             for Water
                  projects that includes expanded testing to verify
                  compliance with ARRA requirements

     2       11 	 Require states to follow the updated state ARRA             U       Assistant Administrator
                  inspection checklist and reference guide when                              for Water
                  inspecting ARRA projects.

     3       18 	 Update the semiannual ARRA review checklist to              U       Assistant Administrator
                  include:                                                                   for Water
                        a.	    Detailed questions about state oversight
                               of project construction.
                        b.	    Expanding transaction testing when
                               erroneous payments are identified.
                        c.	    A question as to whether the project files
                               contain appropriate documentation that
                               the assistance recipient complied with
                               Davis-Bacon Act requirements.

     4       18 	 Update the state inspection checklist to include a          U       Assistant Administrator
                  review of Davis-Bacon documentation and a                                  for Water
                  recommendation to independently verify compliance
                  on a sample basis.

     5       18 	 Establish deadlines for conducting the regional             U       Assistant Administrator
                  semiannual ARRA reviews of state programs and                              for Water
                  documenting then in PERs.

     6       19 	 Use the PERs as a tool to assess Agency trends to           U       Assistant Administrator
                  make program decisions.                                                    for Water

     7       19 	 Use the risks that are identified in the PERs to            U       Assistant Administrator
                  determine the level of oversight needed for each                           for Water
                  state.

     8       19 	 In the next quarterly stewardship plan report,              U       Assistant Administrator
                  discuss OW actions to address the timely                                   for Water
                  completion of PERs.

     9       19 	 In FYs 2011 and 2012, continue to identify the              U       Assistant Administrator
                  progress in completing PERs and determine                                  for Water
                  whether failure to complete them, and complete
                  them in a timely manner, should be identified as an
                  office-level weakness.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




11-R-0519                                                                                                                                     22
                                                                                   Appendix A

                 Details on Scope and Methodology
We reviewed relevant criteria documents, including the CWA, CWSRF regulations, ARRA and
associated OMB guidance, and relevant ARRA CWSRF websites. We analyzed OW guidance
given to EPA regions and states for oversight, including recommended ARRA inspection
checklists for states conducting site visits. Additionally, we reviewed the FMFIA risk assessment
and the EPA Recovery Act Stewardship Plan for Reporting. We developed and conducted a risk
assessment of all 50 states and Puerto Rico that took into consideration the following:

       •	 Most recent PERs for each state as of March 2010
       •	 FYs 2006–2008 single audit findings for each state
       •	 Available FYs 2006–2008 financial statement independent audit findings
       •	 Indicators of untimely use of funds:
              ¾ FYs 2006–2008 unliquidated obligations
              ¾ FYs 2006–2008 National Information Management System financial ratios
       •	 State program size based on ARRA CWSRF allotments
       •	 State project status
       •	 Information from other product lines and divisions within the OIG

With the results of this risk assessment and consideration of prior audits, we selected five
states/territories to visit: Texas, Oregon, New Jersey, Hawaii, and Puerto Rico. On these state
visits, we reviewed EPA-state OAs, capitalization grant agreements, construction manuals, and
other guidance. We analyzed the states’ most recent ARRA PERs and conducted further analyses
based on the reports we received. We also interviewed state CWSRF representatives about state
oversight processes.

In conjunction with state visits, we conducted five construction site visits of CWSRF projects—
two visits in Oregon and three visits in Puerto Rico. While visiting construction sites, we:

       •	 Walked through the site with project staff
       •	 Interviewed project staff
       •	 Reviewed project file documentation (e.g., inspection files, loan/grant agreements,
          change orders, etc.)
       •	 Reviewed bid tabulations and independent engineering cost estimates
       •	 Reviewed ARRA documentation (i.e., Buy American certifications and payroll
          certifications), comparing the subrecipient-maintained ARRA documentation to
          EPA’s guidance




11-R-0519                                                                                       23
To complement our state and site visits, we selected a judgmental sample of seven regions and
nine states/territories to survey. We asked Regions 1, 3, 4, 5, 7, 8, and 9 about any limitations
they faced in conducting their reviews, progress on their semiannual ARRA reviews, and
frequency of site visits. We also surveyed California, Iowa, Indiana, Georgia, North Dakota,
New Hampshire, Pennsylvania, Puerto Rico, and West Virginia regarding states’ subrecipient
monitoring processes. Figure A-1 portrays our audit coverage of states visited and surveyed.
Figure A-1: States reviewed




Source: EPA OIG.

We reviewed internal and management controls in the context of EPA and state subrecipient
monitoring. We reviewed th e Agency’s ARRA stewardship plan and quarterly monitoring
reports. In its stewardship plan, the Agency identified procedures it would follow to mitigate
oversight risks associated with ARRA. The quarterly monitoring reports identify ARRA-funded
program risks to Agency management. We reviewed documents OW prepared to comply with
FMFIA. We reviewed assurance letters and risk assessments for FYs 2009 and 2010.

OMB ARRA guidance instructed EPA to prepare program plans to identify resources and use of
funds. EPA’s CWSRF Program finalized its plan on May 15, 2009. We reviewed this plan to
identify use and timing of ARRA funding.




11-R-0519                                                                                       24
                                                                                      Appendix B


         Regional Performance Evaluations of States:
                 Elapsed Time and Findings
   (Reviews and Corresponding Reports Completed as of September 30, 2010)

 EPA                Date of      Date of   Elapsed
region      State    review    final PER   months                         Findings
  1          ME        (a)         (a)                 No findings
             RI        (a)      08/03/10             • Concerns with state staffing
             VT     07/13/10       (a)                 No findings
   2         PR     02/04/10   03/01/10      0.8     • Lack of documentation in general
   3        DE      09/23/09   11/24/09      2.0       No findings
            MD      02/23/10   08/03/10      5.3     • State not maintaining Buy American certifications
                                                       in project files
             PA     10/21/09   03/08/10      4.5     • Lack of documentation in general
                                                     • Lack of Buy American and Davis-Bacon
                                                       documentation
            VA      12/09/09   06/21/10      6.4     • Lack of Davis-Bacon documentation
            WV      11/19/09   06/15/10      6.8       No findings
   4        FL      04/16/10      (a)                  No findings
            GA      03/12/10      (a)                  No findings
            KY      05/27/10      (a)                  No findings
            NC      05/14/10      (a)                  No findings
            TN      05/12/10      (a)                  No findings
   5        IL      10/29/09   01/21/10      2.8     • Lack of documentation in general
                                                     • Lack of Davis-Bacon documentation
                                                     • Concerns with state staffing
                                                     • Concerns with state inspections of projects
             MI     10/22/09   01/21/10      3.0     • Lack of Davis-Bacon documentation
                                                     • Concerns with state staffing
                                                     • Ineligible expenses
            MN      11/19/09   1/21/10       2.1     • Lack of Davis-Bacon documentation
            OH      04/15/10   07/30/10      3.5     • Single audit compliance concerns
            WI      11/13/09   02/02/10      2.7     • Lack of Davis-Bacon documentation
                                                     • Concerns with state staffing
   6         AR     04/14/10   07/20/10      3.2     • Lack of Buy American and Davis-Bacon
                                                       documentation
             LA     02/03/10   07/27/10      5.7       No findings

            NM      05/21/10   08/25/10      3.2     • Lack of documentation for Disadvantaged
                                                       Business Enterprise, documentation of ARRA and
                                                       of accounting procedures
             OK     06/22/10   08/16/10      1.8       No findings




11-R-0519                                                                                     25
   EPA                    Date of        Date of      Elapsed
  region        State      review      final PER      months                              Findings
    7            IA       01/15/10      05/21/10        4.1        No findings

                 KS       04/13/10      06/09/10          1.9      • Ineligible expenses
                 MO       03/24/10      05/20/10          1.9      • Concern with state staffing
                 NE       12/07/09      03/23/10          3.5      No findings
     8           CO       04/14/10      07/13/10         3.0       No findings
                 MT       05/13/10      06/16/10          1.1      • One Davis-Bacon Issue
                 ND       03/01/10      06/01/10         3.0       No findings
                                                         b
                 UT       07/29/10      10/06/10          2.3      • Lack of documentation on file
                 WY       07/01/10      08/03/10         1.1        No findings
     9            AZ      12/14/09      07/22/10         7.2       •   Lack of documentation in general
                                                                   •   Lack of Davis-Bacon documentation
                 CA       01/14/10    05/01/10           3.5       •   Lack of Davis-Bacon documentation
                                                         b
                 HI       03/19/10    10/21/10           7.1       •   Concerns with state staffing
    10           AK       10/30/09    08/25/10           9.8       •   Lack of documentation on file
                        Average elapsed monthsc          3.7

Source: Most recent PERs received from EPA headquarters and regional CWSRF coordinators as of September 30,
2010.

Note: Only includes states for which PERs have been completed and provided to the OIG. A number of regions have
either not conducted reviews or have conducted reviews but not written or finalized the associated PERs.
           a
               PER did not provide date.
           b
               Report issued after September 30, 2010.
           c
               Average elapsed months only includes reports for which we had date of on-site review and date PER was
               issued.




 11-R-0519                                                                                                      26
                                                                                                     Appendix C

                    Agency’s Response to Draft Report
The response from Office of Water is provided verbatim. OIG responses to those comments have
been inserted in text boxes

                   UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                        WASHINGTON, D.C. 20460


                                                    MAY 11 2011
                                                                                       OFFICE OF
                                                                                          WATER

 MEMORANDUM

SUBJECT: 	       Response to Draft Report: EPA and States Should Strengthen Oversight of Clean Water State 

                 Revolving Fund Recovery Act Projects, Project No. OA FY10 0088


 FROM:           N
                 	 ancy K. Stoner

                 Acting Assistant Administrator 


 TO:        	    Melissa M. Heist 

                 Assistant Inspector General for Audit


         Thank you for the draft report transmitted on April 4, 2011, entitled, "EPA and States Should
 Strengthen Oversight of Clean Water State Revolving Fund Recovery Act Projects." I appreciate the effort
 involved in reviewing the inspection and oversight procedures of such a large and fast-paced program, and I
 welcome the opportunity to respond.

          The report documents a number of findings regarding EPA and State oversight procedures as well as the
 frequency and effectiveness of project inspections. Additionally, the report contains eight recommendations
 regarding oversight of both States and projects. While I agree with the report's assertion that oversight of such a
 large and complex program is essential to prevent fraud, waste, and abuse, many of the conclusions reached in
 the report, are based on assumptions limited sample sizes, and in some instances, incomplete understanding of
 the Clean Water State Revolving Fund program.

 While we disagree with many of the conclusions in the report, we concur with and are implementing most of the 

 recommendations, which are generally reflective of good management practices. 

 Attachment 1 provides the office of Water response to the recommendations included in the draft report. 

 Appendix 2 identifies specific concerns regarding the facts and findings of the draft report. 


          Again, thank you for the opportunity to respond to these timely findings and recommendations. If you

 have and comments or questions regarding this response, please contact me or Sheila Frace, 

 Director, Municipal Support Division, Office of Wastewater Management, at (202) 564-1153. 


 Attachments


11-R-0519                                                                                                        27
Attachment 1  
              
Responses to Recommendations  
              
1.	 Identify which States do not sufficiently oversee CWSRF projects and require those States to develop 
    written corrective action plans to ensure adequate oversight of subrecipients. The corrective action 
    plans must address whether the frequency of site inspections is sufficient to mitigate the risk of 
    noncompliance with ARRA requirements.  
                  
    The Office of Water does not concur with the recommendation. Site inspection is only one of many 
    approaches to reduce noncompliance, and only mitigates the risk in the very few instances of willful 
    and knowing noncompliance. Although site inspection can be an effective way to identify unknowing 
    noncompliance, they do not reduce the risk of such noncompliance as cost effectively as through 
    education and compliance assistance.  
                  
    Comprehensive inspections (independent of frequency) can discover instances of noncompliance 
    after they have occurred. Prudent management requires us to consider the nature, effect, and 
    available options for resolving noncompliance when evaluating the needed frequency of 
    inspections.  Further, given finite and constrained resources, increased frequency of inspections may 
    adversely impact the quality and comprehensiveness of inspections undertaken.  
                  
    Through reviews of State programs and onsite inspections, following the regional oversight 
    management plan, the Office of Water has been able to determine which States need to do a better 
    job of inspecting projects under ARRA. Regional staff are required to accompany State staff on at 
    least one, and preferably two, project inspections each year under ARRA, affording EPA the 
    opportunity to gauge the States' oversight and inspection process. The Office of Water has provided 
    training for State programmatic staff and local staff, and has provided contractor support to assist 
    with project inspections for States with limited resources.  
                  
    EPA will be independently inspecting up to 30% of all CWSRF ARRA projects during the remainder of 
    the calendar year 2011.  
              
2.	 Require States to test and verify that subrecipient documentation complies with ARRA 
    requirements. 
                  
    The Office of Water does not concur with this recommendation. Beyond the question of whether 
    EPA possesses the legal authority to impose the recommended requirement, virtually all States are 
    already inspecting projects and many are using or incorporating specific elements from the 
    inspection checklist developed by the program. Regional staff are required to accompany State staff 
    on at least one, and preferably two, project inspections each year under ARRA. The Office of Water 
    has provided training for State programmatic staff and local staff, and has provided contractor 
    support to assist with project inspections for States with limited resources. The Office of Water will 
    be independently inspecting up to 30% of all CWSRF ARRA projects during the remainder of the 
    calendar year 2011.  
     
     
3.	 Update the semiannual ARRA review checklist to include:  
        a.	 Detailed questions about State oversight of project construction.  
        b.	 Detailed questions about Davis‐Bacon and Buy American documentation review and a 


11-R-0519                                                                                             28
             recommendation to independently verifying (sic) compliance on a sample basis.  
         c.	 A recommendation for expanded transaction testing when erroneous payments are 
             identified.  
                       
    The Office of Water concurs with recommendation 3(a) and the first element of recommendation 3 
    (b). The existing checklist already includes these types of questions, but the questions will be 
    supplemented during a checklist revision. The Office of Water does not concur with the second 
    element of recommendation 3(b), which appears to be completely misplaced, as it is does not 
    pertain to the review checklist, but appears to be related to recommendation 2 above. While 
    recommendation 3(c) is likewise misplaced and does not pertain to the review checklist, the Office 
    of Water agrees to the recommendation to expand transaction testing, but only where warranted by 
    cases of serious, or systemic erroneous payments. Regarding recommendation 3(c), based on 
    findings to date, our transaction tests are sufficiently rigorous when combined with our state 
    reviews to identify if additional transaction tests should be incorporated into a future review as a 
    follow‐up item.  
                  
4.	 Establish deadlines for conducting the regional semiannual ARRA reviews of State programs and 
    documenting them in PERs.  
                       
    The Office of Water concurs, as this recommendation has already been implemented. Semiannual 
    ARRA reviews are to be done approximately every 6 months, and are typically coordinated with the 
    established schedule of the primary annual review. The primary annual review is a pre‐existing and 
    ongoing monitoring element of the base CWSRF program. It is recommended that the primary 
    annual review be conducted within 60 days of receipt of the State's annual report, which is to be 
    submitted within 90 days of the end of the State's fiscal year. As a result, the schedule does not 
    comport with the Federal Fiscal Year. Guidance has already been issued directing PERs to be issued 
    within 60 days of a review.  
                  
5.	 Use the PERs as a tool to assess Agency trends to make program decisions.  
                       
    The Office of Water concurs, as this is already a core part of EPA oversight.  EPA used the PERs, in 
    addition to interaction with States and Regions during reviews, summary finding memos, individual 
    checklists for projects and transactions, and semiannual summaries to identify best practices and 
    identify trends for needed changes and improvements in the program. EPA has used all of this 
    information to develop program priorities, including: expanding the annual review checklists; 
    conducting 3‐day training in oversight procedures in each Regional office between March and 
    October 2011; establishing discussion points during the monthly coordinator calls; and updating 
    Standard Operating Procedures for Regional staff.  

6.	 Use the risks that are identified in the PERs to determine the level of oversight needed for each 
    State.  
              
    The Office of Water concurs, as this is already a core part of EPA oversight. It must be noted, 
    however, that EPA provides findings to States during the exit conference of the State review and 
    initiates corrective actions, if needed, well before final PERs are signed. This approach allows EPA 
    the flexibility, for example, to increase the number of project file reviews even during the course of 
    the ongoing review or in supplementary reviews should an issue be identified. It also allows State to 
    immediately begin corrective actions, as needed.  
              

11-R-0519                                                                                              29
7.	 In the next quarterly stewardship plan report, discuss OW actions to address the timely completion 
    of PERs.  
              
    The Office of Water concurs.  
              
8.	 In FYs 2011 and 2012, continue to identify the progress in completing PERs and determine whether 
    failure to complete them, and complete them in a timely manner, should be identified as an office‐
    level weakness.  
                    
    The Office of Water concurs with recommendation to continue monitoring the progress in 
    completing PERs. The Office of Water does not concur with the recommendation to make a 
    determination of weakness based on results from FY2011 and FY2012, given that CWSRF ARRA 
    oversight activities will have been largely, if not fully completed by end of FY2012. 




11-R-0519                                                                                           30
Attachment 2  
               
Comments on Findings  
               
Chapter 2: States Should Strengthen Oversight of CWSRF Projects  
               
Page 8: States Not Ensuring Compliance with Certain ARRA Provisions  
              
The report states that four of five States visited do not independently verify compliance with ARRA 
requirements. This conclusion does not appear to be supported by any of the facts presented in this 
section. Independent verification of Buy American and Davis‐Bacon documentation is not required, as 
noted in the report, by EPA guidance. State programs review project files to determine if proper 
documentation has been received. However, no State has the resources to determine independently the 
accuracy of the claims made by contractors and suppliers. States were instructed to include provisions in 
loan agreements requiring verification by assistance recipients and by requiring assistance recipients to 
include language in contracts signed with contractors, suppliers and vendors that would hold 
responsible any party making false claims. Requiring each party to independently verify documentation 
would have created an inefficient application of the ARRA requirements leading to construction delays 
that would have violated the spirit of the ARRA.  
               
In developing the inspection checklist, EPA made a conscious decision to focus the State's reviews on 
verifying that the assistance recipient was performing due diligence and appropriate oversight of ARRA 
projects. The inspection checklist was not intended to be an instrument for the States to fully duplicate 
the ARRA oversight activities which were the responsibility of the assistance recipient. This decision was 
made based on the following:  
                   
    •	 Assistance recipients bear the ultimate responsibility for ensuring compliance with ARRA 
         requirements, as they are the parties contracting for construction and purchasing materials;  
    •	 States do not have the staff or resources to complete duplicative oversight of the numerous 
         ARRA‐funded projects;  
    •	 EPA does not have the authority to require States to perform detailed inspections of ARRA 
         projects; and  
    •	 The Davis‐Bacon grant condition developed by the Office of Grants and Debarment did not 
         require States to perform independent assessments.  
               
The report states that for Davis‐Bacon Act wage requirements, the EPA checklist only requires States to 
confirm that the subrecipient was verifying compliance. However, when the instructions for the 
checklist are followed, there is a thorough process for confirming compliance that extends beyond 
merely reviewing signed compliance statements. The process is as follows:  
                   
    •	 Review payroll records to ensure they are present for every week;  
    •	 Ensure employees are paid weekly;  
    •	 Check for signed statement of compliance;  
    •	 Confirm that the assistance recipient conducted employee wage interviews, which ask whether 
        the employee is being paid the appropriate wage rates;  
    •	 Check that the Davis‐Bacon wage rates and the WH‐1321 poster are posted conspicuously and 
         in relevant languages;  
    •	 Confirm that the wage rates posted are those used in the construction contract;  
    •	 Have assistance recipients describe the methodology used to review payroll records;  
    •	 Verify that fringe benefits have been reviewed;  
    •	 Confirm that the assistance recipient has reviewed all appropriate documentation and 

11-R-0519                                                                                             31
        eligibility for all apprentices and trainees working onsite.  
    •   Verify that the ratio of trainees to journeymen complies with the approved plan;  
                  
 
 
OIG Response: The steps identified above are included in the revised checklist that EPA 
provided when responding to the draft report. However, Regions did not conduct these steps during 
the 2010 state performance evaluations that we reviewed during the audit because the Regions did not 
use a site inspection checklist during the semiannual ARRA reviews. Implementation of the revised 
checklist steps will address the findings in the report.  
 
 
Again, the checklist is designed to confirm Davis‐Bacon compliance, not to repeat actions already 
conducted by the assistance recipient. The assistance recipient is also required to submit certifications 
on a regular basis to certify that it has complied with the Davis‐Bacon requirements, as laid out in the 
grant agreement.  
              
The report states that 48 of 53 Buy American certifications for the five projects reviewed did not include 
sufficient documentation to verify compliance. Only one example is given, where a supplier stated that 
material made in Canada automatically complies. Without further details related to these finding, it is 
impossible to comment. The report also states that in 26 of 53 instances, the country of origin of 
components used to manufacture the goods were not identified. However, if the good is manufactured 
in the US, there is no need to identify the country of origin of the components. OMB guidance has 
clearly established that there is no requirement with regard to the origin of components or 
subcomponents in manufactured goods, as long as the manufacture of the goods occurs in the United 
States.  
 
 
OIG Response: We included additional examples in the report and provided additional 
documentation where regions requested the information. 
 
 
The report cites one example where Davis‐Bacon documentation was reviewed and found that a 
recipient did not ensure contractors complied with wage requirements. There are no supporting details 
regarding this finding. Due to the complexities of the Davis‐Bacon requirements, it is impossible to 
determine whether the IG inspectors were correctly applying the Davis‐Bacon requirements.  
 
 
OIG Response: We removed the example from the final report.  
 
                 
The report states that loan agreements between States and recipients include a requirement that the 
State ensure compliance with all ARRA requirements but does not mention that the States can simply 
delegate this requirement to the loan recipients. However, the IG is misinterpreting the requirements of 
the loan agreements and the execution of these agreements. The recipients are required to perform due 
diligence to ensure compliance with ARRA requirements. The States are required to verify that such due 
diligence has occurred, thereby ensuring compliance. This is accomplished through the use of inspection 
checklists, which with outline specific steps to be taken by State inspectors.  


11-R-0519                                                                                             32
                   
Page 9: State Inspection Frequency of ARRA CWSRF Projects Varied  
               
Noting the varied frequency of project inspections, the report states, "According to EPA management, 
when Congress created the CWSRF program, it intended for states to have flexibility in implementing 
their programs." This conclusion is supported by the brevity of the implementing language, the 
legislative history, and the continued funding by Congress of a program that has not been changed or 
reauthorized since 1987. Congress has never granted the authority for EPA to require additional 
oversight of projects by State programs or to mandate a particular number or frequency of inspections. 
The report notes that the IG has concluded that EPA has such authority, however, no support or 
accompanying legal analysis for this conclusion is given.  
               
The report states that when a State conducts more frequent inspection, more issues of noncompliance 
are found. This is a faulty conclusion. It specifically highlights 5 States. Two States do quarterly 
inspections, one does monthly inspections, one does biweekly inspections, and another does 
inspections when the project is 30%, 50% and 90% complete. First, the report concludes that the State 
that inspects at certain milestones (30%, 50%, and 90%) inspects a project fewer times than one that 
inspects quarterly.  Construction projects with duration of less than 9 months would actually be 
inspected more frequently in such a State. The report then shows that in this State, no violations were 
found, concluding that less frequent inspections leads to no findings of violations. In this case, a faulty 
assumption leads to a faulty conclusion. Even if the assumption that fewer inspections were performed 
was correct, the conclusion would be based on a very small sample size, which is wholly insufficient to 
draw a conclusion or even establish a correlation. Furthermore, the frequency of the inspections is not 
necessarily related to the number of violations found. The occurrence and discovery of violations would 
be based on a variety of factors, including but not limited to subrecipient understanding of 
requirements, willingness to ensure compliance, and technical and managerial competency to achieve 
compliance.  
                 
Page 10: States Not Using Administrative Set‐Aside  
               
The report states that, "Six of the 13 States that we surveyed were not using any of their administrative 
set‐aside funds" and that, "One state indicates that resource limitations did not allow it to review ARRA 
applications in a timely manner. However, this State did not use its administrative set‐aside." It isn't 
clear why this observation is relevant, as all States met the statutory deadline of "under contract or 
construction" and thus were, by definition, timely.  
 
 
OIG Response: While all projects were under construction, one state did tell the auditors that 
not all applications were reviewed and that those not reviewed were instead considered for the 
next SRF funding opportunity. 
 
 
More importantly, it is critical to recognize that States have their own rules in place that can make 
utilizing a sharp and sudden increase in funds difficult. State‐wide hiring freezes and furloughs and 
legislative spending caps created a lengthy process in some States and an impossible situation in others. 
Despite the fact that States were able to access an increased amount of funds under the 4% set‐aside, 
many were unable to do so in a timely or useful manner, and unable to hire staff to deal with the 
increased workload. State programs and EPA had very little control over this process. Finally, some 


11-R-0519                                                                                              33
States chose to use 100% of funds provided to build projects, which clearly aligns with the goals of 
ARRA.  
 
                 
Chapter 3: EPA Should Strengthen Oversight of States  
 
Page 13: EPA Required to Oversee State Programs 
              
The report states EPA implemented various actions in response to GAO recommendations, for example, 
increasing frequency of regional reviews and sampling of project files and transaction testing. This is 
incorrect.  EPA had actually adopted these changes in the Stewardship Plan developed the previous 
year.  
                 
Page 14: EPA's Review Checklist Did Not Ensure State Program Compliance  
              
The report states that the semiannual ARRA review checklist did not include enough detailed questions 
to ensure State compliance. Specifically that the checklist was lacking detailed questions about State 
oversight of project construction, Davis‐Bacon and Buy American documentation review and a 
recommendation to spot‐check to verify compliance, and a recommendation for expanded transaction 
testing when erroneous payments are identified.  
 
Expanded transaction testing when erroneous payments are identified may not be practical in the time 
frame of any given review considering the time involved per transaction, however, it may be feasible as 
a follow‐up item for future visits.  
               
The finding that the checklist is not detailed enough regarding oversight of program requirements does 
not take into consideration that Regions, in addition to performing semiannual State reviews, are 
required to examine all files and documents within a project file relating to such requirements and are 
required to accompany State staff on at least 1 project review per State. The examination of all project 
file documents and the experience of accompanying State staff on reviews provide Regional staff with 
the ability to accurately assess State program compliance. Checklists are used as a guide for program 
reviews and have been released in conjunction with detailed training sessions for Regional staff.  
               
Page 14: EPA Not Timely Conducting and Writing Reviews of State Programs  
              
The report states that EPA OW management did not establish a timeframe for completion of PERs, 
however, EPA instituted a 60 day requirement for submission of PERs in FY 2011. The report also states 
that both EPA OW management and Regional management did not establish as a priority the writing and 
documenting of reviews in a timely manner. EPA communicated regularly with all EPA Regional staff 
regarding the frequency and timing of the semiannual reviews of ARRA programs. EPA also provided 
contractor support to each Region for the reviews and every Region accepted this offer. EPA HQ staff 
attended and participated in reviews in most States during 2009 and 2010 to oversee the review 
process. Regions are aware of the findings of reviews prior to the exit conference of the review. EPA also 
receives the findings of any review activities completed by their contractor in memo form within 2 
weeks of completion of the review. We agree that timeliness of completion of the review memo is 
important and will strive to ensure that all Regions meet the established deadline. It should be noted, 
however, that EPA communicates all findings to States at the State review exit conferences and  
corrective actions begin long before final PERs are signed.  
 

11-R-0519                                                                                             34
              
Page 15: EPA Not Using PERs to Make Agency Program Decisions  
 
The report states that EPA did not use the PERs to collectively make Agency decisions to improve the 
program or to analyze national trends. EPA used the PERs, in addition to interaction with States and 
Regions during attendance of reviews, summary finding memos, individual checklists for projects and 
transactions, and semiannual summaries to identify best practices and identify trends for needed 
changes and improvements in the program. As noted above, PERs are used to document findings that 
have already been presented to State programs and acted upon by EPA. EPA has used all of this 
information to develop program priorities, including:  
 
    •	 Expanding the annual review checklists;  
    •	 Conducting 3‐day training in oversight procedures in each Regional office between March and 
        October 2011;  
    •	 Establishing discussion points during the monthly coordinator calls;  
    •	 Editing Standard Operating Procedures for Regional staff in conducting reviews;  
    •	 Determining the need for additional specific training on topics such as Buy American and Davis‐
        Bacon compliance.  
     
Again, conclusions are presented without any supporting examples or documentation.       
              
 
OIG Response: Our review considered PERs completed during FY 2010. These activities took 
place after that time. At the time of the review, OW had neither accumulated nor analyzed the 
PER reviews to identify areas in which improvements in guidance or oversight were needed.   
 
 
 
Additional Factual Corrections  
 
Table 5 shows Regions having only completed 49 reviews as of September 30, 2010. This number is 
incorrect, and likely indicates at minimum, confusion regarding the data requested. Footnote (a) in Table 
5 indicates Region 3 completed two reviews for each of its' 5 states, while the Table inconsistently 
reports 5 reviews and 5 reports. The footnote also incorrectly indicates EPA guidance specifies a review 
cycle based on the fiscal year. Further, Region 5 completed all 6 PERs.  
             
Appendix B only lists one review for each State, which is incorrect.  Further, it is missing all reviews for 
Indiana.  
              
 
OIG Response: The information in appendix B summarizes the PER reports that were completed 
as of September 30, 2010, and provided to the OIG. Chapter 3, table 5, lists the number of 
actual reviews that were completed. While a region may have completed a review, if it did not 
also complete the report, we were not able to analyze what the review found. Therefore, the 
review is not included in appendix B.  Regarding Indiana, we confirmed that the PER report was 
not completed as of September 30, 2010. Therefore, we have not revised the report.        
 
 




11-R-0519                                                                                               35
                                                                              Appendix D

                                    Distribution
Office of the Administrator
Assistant Administrator, Office of Water
Assistant Administrator, Office of Administration and Resources Management
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Office of Regional Operations
Director, Office of Wastewater Management, Office of Water
Director, Municipal Support Division, Office of Wastewater Management, Office of Water
Chief, State Revolving Fund Branch, Office of Wastewater Management, Office of Water
Audit Followup Coordinator, Office of Water




11-R-0519                                                                                36
